(i or s)
Case: 20-15078, 01/25/2021, ID: 11979508, DktEntry: 15-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

JAN 25 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JACKIE CHAGOLLA, Parent on behalf of
B.C. on behalf of P.C.,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-15078
D C. No. 2:17-cv-01811 -DGC

Plaintiff-Appellant,

MEMORANDUM*

v.

LIZ VULLO; et al.,
Defendants-Appellees,
and
AZ DCS; et ah,
Defendants.
Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Submitted January 20, 2021**
Before:

McKEOWN, CALLAHAN, and BRESS, Circuit Judges.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2). Chagolla’s request for oral
argument, set forth in the reply brief, is denied.

la

(z or a)
Case: 20-15078, 01/25/2021, ID: 11979508, DktEntry: 15-1, Page 2 of 4

Jackie Chagolla appeals pro se from the district court’s summary judgment
in her 42 U.S.C. § 1983 action alleging federal claims. We have jurisdiction under
28 U.S.C. § 1291. We review de novo. Kohler v. Bed Bath & Beyond, LLC,
780 F.3d 1260, 1263 (9th Cir. 2015). We affirm.
The district court properly granted summary judgment on Chagolla’s due
process claim against defendant Solis stemming from the removal of Chagolla’s
children from her custody because Chagolla failed to raise a genuine dispute of
material fact as to whether Solis lacked reasonable cause to believe the children
were in imminent danger of serious bodily injury. See Demaree v. Pederson, 887
F.3d 870, 878-79 (9th Cir. 2018) (explaining circumstances in which officials may
constitutionally remove children from their parents temporarily without prior
judicial authorization).
The district court properly granted summary judgment on Chagolla’s due
process claim against defendant Solis related to Solis’s investigation because
Chagolla failed to raise a triable dispute as to whether the alleged conduct shocked
the conscience. See Costanich v. Dep’t ofSoc. & Health Servs., 627 F.3d 1101,
1111 (9th Cir. 2010) (“The Court has repeatedly spoken of the cognizable level of
executive abuse of power as that which shocks the conscience.” (citation and
internal quotation marks omitted)); Devereaux v. Abbey, 263 F.3d 1070, 1075 (9th
Cir. 2001) (en banc) (no due process right to have a child abuse investigation

2

2a

20-15078

(3 or 8)

Case: 20-15078, 01/25/2021, ID: 11979508, DktEntry: 15-1, Page 3 of 4

carried out in a particular way or have witnesses interviewed in a particular
manner).
The district court properly granted summary judgment on Chagolla’s
defamation-plus claim against defendants Solis, Ward, and Holya because
Chagolla failed to raise a triable dispute as to whether the contested statements
were provably false assertions of fact. See Crowe v. County ofSan Diego, 608
F.3d 406, 443 (9th Cir. 2010) (“In order to fall outside the scope of First
Amendment protection, an alleged defamatory statement must contain a provably
false factual connotation.” (citation and internal quotation marks omitted)).
The district court properly granted summary judgment on Chagolla’s § 1983
claims against defendant Vullo because Chagolla failed to raise a triable dispute as
to whether Vullo acted under color of state law. See Kirtley v. Rainey, 326 F.3d
1088, 1092-96 (9th Cir. 2003) (explaining that a § 1983 plaintiff must show the
defendant “acted under color of state law” and the tests to determine state action;
the central question is whether the alleged constitutional violation is fairly
attributable to the government).
To the extent the district court erred by determining that the Arizona
Department of Child Safety (“DCS”) was not a party, any error was harmless
because Chagolla’s claims against DCS are barred by the Eleventh Amendment.
See Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100 (1984) (“[I]n

3
3a

20-15078

(4 or b)

Case: 20-15078, 01/25/2021, ID: 11979508, DktEntry: 15-1, Page 4 of 4

the absence of consent a suit in which the State or one of its agencies or
departments is named as the defendant is proscribed by the Eleventh
Amendment.”).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.

4

4a

20-15078

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 1 of 9

1

WO

2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

Jackie Chagolla,

9

No. CV17-01811 -PHX-DGC

Plaintiff,

10

ORDER

11

v.

12

Liz Vullo, Jessica Solis, Patricia Ward, and
Robert Holya,

13

Defendants.

14
15
16

Plaintiff Jackie Chagolla alleges constitutional violations surrounding the removal

17

of her minor children, B.C. and P.C. See Doc. 1-1 at 2. Defendants separately move for

18

summary judgment. Docs. 104, 111. The motions are fully briefed, and oral argument has

19

not been requested. Docs. 115-118. The Court will grant both motions. l

20

I.

Background.

21

Defendants moved for summary judgment in April and May of this year.

22

Docs. 104, 111. Although Plaintiff has responded, she did not comply with Local Rule of

23

Civil Procedure 56.1. Despite being warned to do so, Plaintiff has not filed a separate

24

statement of facts with numbered paragraphs corresponding to Defendants’ separate

25

statement of facts. See Doc. 108 at 2. The Court informed Plaintiff of her burden:

26

[Y]ou must set out specific facts in declarations, depositions, answers to
interrogatories, or authenticated documents, as provided in Rule 56(e) of the

27

28

i

This case was recently transferred to the undersigned judge with the motions

already pending.
AUTHENTICATED
U.S. GOVERNMENT
INFORMATION

gpo>^

)

9a

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 2 of 9

1
2
3

Federal Rules of Civil Procedure, that contradict the facts set forth in the
declarations and documents filed by Defendant(s), and show that there is a
genuine issue of material fact for trial. If you do not submit your own
evidence in opposition, summary judgment, if appropriate, may be entered
against you. if summary judgment is granted, your case will be dismissed
and there will be no trial.

4
5

Id. Despite reiterating many of the arguments originally made in her complaint, Plaintiff

6

provides no declarations, depositions, answers to interrogatories, or authenticated

7

documents as allowed by Rule 56(e). See Docs. 115, 117. Nevertheless, the Court will

8

consider the arguments Plaintiff has provided and will address the motions on the merits.

9

The following facts state the parties’ respective positions.

10

On July 2, 2015, Tempe Police officers made contact with Plaintiffs minor

11

daughters, B.C. and P.C. Doc. 104 at 1-2. B.C. and P.C. informed the officers that their

12

father, Robert Chagolla, regularly abused them and that Plaintiff had ignored the abuse.

13

Id. at 2. In response, the Tempe Police Department (“Tempe PD”) contacted the Arizona

14

Department of Child Safety (“DCS”). Id. On July 6, 2015, DCS case worker Jessica Solis

15

interviewed Plaintiff, B.C., P.C., and Robert Chagolla. Id. On that same day, the Tempe

16

PD opened an investigation into allegations of the physical and sexual abuse of B.C. and

17

P.C. by Robert Chagolla. Doc. 104 at 2. Following the interviews, Solis determined that

18

B.C. and P.C. needed to be removed from the Chagolla home during the investigation into

19

the alleged abuse. Docs. 104 at 2, 111 at 2.

20

Rather than having B.C. and P.C. live in a group home during the investigation,

21

Plaintiff asked Liz Vullo, a family friend, if they could live with her. Doc. 111 at 2. Vullo

22

agreed and thereafter maintained custody of B.C. and P.C. for six months. Id. Vullo spoke

23

with a detective from the Tempe PD and later with a representative from La Frontera, a

24

mental health service, about B.C. and P.C. Id. at 3. Vullo claims that “she spoke truthfully”

25

to the representative from La Frontera, which Plaintiff disputes. See Docs. Ill at 3, 117

26

at 1-2. Vullo also maintains - and Plaintiff disputes - that she never received any mail

27

addressed to Plaintiff and that she did not publicly disclose any information about Plaintiff.

28

Docs. 111 at 3, 117 at 2-3.

-2-

10a

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 3 of 9

Plaintiff now asserts constitutional claims against three state defendants and Vullo.

1
2

See Doc. 71.

3

II.

Summary Judgment Standard.

4

A party seeking summary judgment “bears the initial responsibility of informing the

5

district court of the basis for its motion, and identifying those portions of [the record] which

6

it believes demonstrate the absence of a genuine issue of material fact.” Celotex Corp. v.

7

Catrett, 477 U.S. 317, 323 (1986). Summary judgment is appropriate if the evidence,

8

viewed in the light most favorable to the nonmoving party, shows “that there is no genuine

9

dispute as to any material fact and the movant is entitled to judgment as a matter of law.”

10

Fed. R. Civ. P. 56(a). Rule 56 further provides:

11

13

If a party fails to . . . properly address another party’s assertion of fact as
required by Rule 56(c), the court may . . . consider the fact undisputed for
purposes of the motion [or] grant summary judgment if the motion and
supporting materials - including the facts considered undisputed - show that
the movant is entitled to it[.]

14

Fed. R. Civ. P. 56(e)(3). Thus, a party opposing summary judgment “may not rest upon

15

the mere allegations or denials of [the party's] pleadings, but . . . must set forth specific

16

facts showing that there is a genuine issue for trial.” Matsushita Elec. Indus. Co. v. Zenith

17

Radio Corp., 475 U.S. 574, 586 n.ll (1986) (emphasis added); see LRCiv 56.1(b)

18

(requiring the party opposing summary judgment to present evidence that establishes a

19

genuine issue of material fact or otherwise precludes judgment in favor of the moving

20

party).

21

III.

12

State Defendants’ Motion.

22

A.

23

Plaintiff argues that her constitutional right to parent her children was violated when

24

Solis removed B.C. and P.C. from her custody without a court order and on the basis of

25

“untrue information.” Doc. 71 at 1. Plaintiff alleges that Solis “stated that she would do

26

whatever it took to make sure that P.C. and B.C. never returned to [her family] again,” and

27

that this violated the Due Process Clause of the Fourteenth Amendment by depriving her

28

of a continued relationship with her children. Id. at 1-2. Solis - a state employee -

Wrongful Removal Claim.

-3 -

11a

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 4 of 9

1

contends that this claim fails because she is entitled to qualified immunity. Doc. 104 at 3.

2

The Court agrees.

3

“Government officials are entitled to qualified immunity with respect to

4

discretionary functions performed in their official capacities.” Ziglar v. Abbasi, 137 S.

5

Ct. 1843,1866(2017). The Supreme Court has established a two-step inquiry for resolving

6

a qualified immunity defense: the constitutional inquiry and the qualified immunity

7

inquiry. See Saucier v. Katz, 533 U.S. 194, 200 (2001). The first step asks whether, taken

8

in the light most favorable to the plaintiff, the facts show that the officials’ conduct violated

9

a constitutional right. Id. at 201. The second step asks whether the right was clearly

10

established at the time of the violation. Id.

11

Solis is entitled to qualified immunity under the first step because - even when taken

12

in the light most favorable to Plaintiff - the facts show that she did not violate Plaintiffs

13

constitutional rights. “Parents and children have a well-elaborated constitutional right to

14

live together without governmental interference.” Wallis v. Spencer, 202 F.3d 1126, 1136

15

(9th Cir. 2000). While parents have a Fourteenth Amendment right to the care, custody,

16

and control of their children, it is not absolute. Troxel v. Granville, 530 U.S. 57, 65 (2000);

17

see Mueller v. Auker, 700 F.3d 1180, 1186 (9th Cir. 2012) (holding that a parent’s “rights

18

must bow to other countervailing interests and rights, such as the basic independent life

19

and liberty rights of the child and of the State acting as parens patriae[fy, Lassiter v.

20

Dep’t ofSoc. Servs., 452 U.S. 18, 27 (1981) (holding that the state “has an urgent interest

21

in the welfare of the child”). Officials violate parental rights if they remove a child from

22

the home absent “information at the time of the seizure that establishes ‘reasonable cause

23

to believe that the child is in imminent danger of serious bodily injury and that the scope

24

of the intrusion is reasonably necessary to avert that specific injury.’” Mabe v. San

25

Bernardino Cty., Dep’t ofPub. Soc. Servs., 237F.3d 1101, 1106 (9th Cir. 2001).

26

Solis did not violate Plaintiffs constitutional rights because, at the time of the

27

removal, she had specific, articulable evidence that provided reasonable cause to believe

28

that B.C. and P.C. were in imminent danger of abuse. Croft v. Westmoreland Cty. Children

12a

-4-

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 5 of 9

1

and Youth Servs., 103 F.3d 1123, 1125 (3d Cir. 1997); see Ram v. Rubin, 118 F.3d 1306,

2

1311 (9th Cir. 1997) (“[Sjerious allegations of abuse which are investigated and

3

corroborated usually gives rise to a reasonable inference of imminent danger.”). In their

4

interview with Solis, B.C. and P.C. disclosed that their father had physically and verbally

5

abused them prior to them running away and that Plaintiff had ignored the abuse. Doc. 105-

6

3

7

she attempted to sneak out of the home the same day they ran away. Id.

8

these allegations, Solis determined that it was necessary for DCS to take temporary custody

9

of B.C. and P.C. to ensure their safety. Id. ^ 9. Beyond a conclusory statement that Solis’s

10

determination was based on untrue information, Plaintiff has presented no evidence from

11

which a jury reasonably could find that Solis did not have reasonable cause to remove B.C.

12

and P.C.

5. B.C. further disclosed that her father had recently physically assaulted her because
7. Based on

13

Because Plaintiffs constitutional rights were not violated, the Court need not

14

address the second step of the qualified immunity analysis. See Pearson v. Callahan, 555

15

U.S. 223, 236 (2009). The Court will grant summary judgment on Plaintiffs wrongful

16

removal claim.

17

B.

18

Plaintiff alleges a Fourteenth Amendment violation because the State Defendants

19

allegedly reported false information to juvenile court regarding the existence of a sexual

20

abuse investigation into Robert. Doc. 71^6, 9-12. The State Defendants argue this claim

21

fails because the Tempe PD did investigate allegations of sexual abuse during the relevant

22

time frame. Doc. 104 at 7.

Fraud and Defamation Claims.

23

The evidence Defendants have presented is clear: the Tempe PD Special Victims

24

Unit opened an investigation into the potential abuse of B.C. and P.C. by Robert

25

(Doc. 105 ^ 17); this investigation included specific allegations of physical and sexual

26

abuse (id. Tf 19); and the investigation was deemed inactive on September 7, 2015

27

(id.

28

2 In a separate filing, Plaintiff alleges that a statement by Detective Erik Hernandez
of the Tempe Police Department that “the case was deemed inactive on September 7,2015”

22).2

Aside from unsupported statements regarding the presentation of false

13a

-5-

Case 2:17-aHD1811-DGC Document 127 Filed 12/16/19 Page 6 of 9

1

information, Plaintiff has presented no evidence to indicate that State Defendants

2

committed fraud by reporting the sexual abuse investigation to the juvenile court. See

3

Doc. 115 at 7. Plaintiff does not indicate how the disclosure of these facts by Solis, Ward,

4

and Holya to juvenile court rises to the level of fraud or defamation. See Matsushita, 475

5

U.S. at 586 n.ll (holding that the party opposing summary judgment “must set forth

6

specific facts showing that there is a genuine issue for trial”). The Court will grant

7

summary judgment on these claims.

8

C.

9

Plaintiff also claims violations of the Fourteenth Amendment because (1) Solis

10

interviewed other children residing with Plaintiff and did not include that information in

11

her report to juvenile court, (2) Solis spoke to Vullo about the sexual abuse investigation,

12

(3) Solis blocked an independent reviewer from speaking to anyone other than Vullo, B.C.,

13

or P.C., and (4) DCS failed to provide medical care for B.C. and P.C. Doc. 71 Iflf 3-5, 14.

14

Defendants argue that, as a matter of law, these allegations do not rise to the level of

15

Fourteenth Amendment violations.

Other Claims.

16

The first three allegations are related to the manner in which Solis conducted the

17

DCS investigation. As mentioned, the state “has an urgent interest in the welfare of the

18

child[.]” Lassiter, 452 U.S. at 27. And while there is an established right to family

19

integrity, there is no “constitutional right to be free from child abuse investigations.”

20

Watterson v. Page, 987 F.2d 1, 8 (1st Cir. 1993) (citing Stanley v. Illinois., 405

21

U.S. 645, 649 (1972)). In order to rise to the level of a Fourteenth Amendment violation,

22

official conduct must “shock the conscience.” Porter v. Osborn, 546 F.3d 1131,1137 (9th

23

Cir. 2008).

24

“deliberate indifference,” which means “conscious or reckless disregard of the

25

consequences of one’s acts or omissions.” Gantt v. City of Los Angeles, 717 F.3d 702, 708

An official’s conduct shocks the conscience when he or she acts with

26
27
28

is false. Doc. 114 3. In support, Plaintiff cites a letter from Detective Hernandez, dated
August 19, 2015, informing ner that the case was inactive. But the investigation was in
fact officially deemed inactive on September 7, 2015. See Doc. 105-1 at 14. Regardless,
Plaintiff has failed to identify any other facts or legal authority indicating now her

Fourteenth Amendment rights were violated here.
14a

-6-

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 7 of 9

1

(9th Cir. 2013). Aside from conclusory statements implying disagreement with the manner

2

of the investigation, Plaintiff provides no facts suggesting that Solis’s conduct shocks the

3

conscience. Gantt, 717 F.3d at 708. The Court will grant summary judgment on these

4

claims.

5

Plaintiff also argues that DCS failed to provide medical care for B.C. and P.C.

6

Doc. 71 Tf 14. The right to family association includes the rights of parents to make

7

important medical decisions for their children and of children to have those decisions made

8

by their parents rather than the state. See Parham v. J.R., 442 U.S. 584, 602, (1979)

9

(holding that it is in the interest of the parents and children that parents have ultimate

10

authority to make medical decisions for their children unless “neutral fact finder”

11

determines, through a due process hearing, that parent is not acting in the child’s best

12

interests). But Plaintiffs allegation is directed at DCS, which is not a party to this case,

13

and its alleged inaction is unrelated to the named Defendants here. See Doc. 71 at 8. The

14

Court will grant summary judgment on these claims.

15

IV.

Defendant Vullo’s Motion.

16

Plaintiff alleges Vullo violated the Fourteenth Amendment because she (1) had a

17

conversation with Solis which “may have included an allegation of a police sexual abuse

18

investigation” (Doc. 71 ^ 4), (2) stated falsehoods to an independent investigator and

19

prevented that investigator from speaking to anyone else but herself or B.C. and P.C.

20

(id. ^1 5), and (3) either destroyed or did not return mail addressed to Plaintiff that had been

21

inadvertently sent to Vullo (id. ^ 7).

22

The Fourteenth Amendment applies to state actors, not private parties. Rendell-

23

Baker v. Kohn, 457 U.S. 830, 837 (1982) (citations omitted). To determine whether a

24

person is a state actor, the Ninth Circuit recognizes four tests: (1) public function; (2) joint

25

action; (3) governmental compulsion or coercion; and (4) governmental nexus. Kirtley v.

26

Rainey, 326 F.3d 1088, 1692 (9th Cir. 2003) (quoting Sutton v. Providence St. Joseph Med.

27

Ctr., 192 F.3d 826, 835-36 (9th Cir. 1999)). “Satisfaction of any one test is sufficient to

28

15a

-7-

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 8 of 9

1

find state action, so long as no countervailing factor exists.” Id. (quoting Lee v. Katz, 276

2

F.3d 550, 554 (9th Cir. 2002)).

3

Plaintiffprovides no evidence that would support a conclusion that Vullo was a state

4

actor. First, Vullo is not a state actor under the public function test. “Under the public

5

function test, when private individuals or groups are endowed by the State with powers or

6

functions governmental in nature, they become agencies or instrumentalities of the State

7

and subject to its constitutional limitations.” Lee, 276 F.3d at 554-55 (internal quotation

8

marks omitted). The public function test is satisfied only on a showing that the function at

9

issue is “both traditionally and exclusively governmental.” Id. at 555. Vullo’s custody of

10

Plaintiffs children is not “traditionally and exclusively governmental.” Id. In fact, this

11

Circuit has held that even a court-appointed guardian of a minor does not have powers that

12

are governmental in nature. See Kirtley, 326 F.3d at 1096. This test is not satisfied.

13

Under the joint action test, courts consider whether “the state has so far insinuated

14

itself into a position of interdependence with the private entity that it must be recognized

15

as a joint participant in the challenged activity.” Id. at 1093. A private party must be a

16

“willful participant,” whose actions are “inextricably intertwined” with those of the

17

government.

18

Cir. 2002). The joint action is test is thus not satisfied where, as here, a guardian takes

19

custody of a child. See Kirtley, 326 F.3d at 1093-94.

Brunette v. Humane Soc’y of Venura Cty., 294 F.3d 1205, 1211 (9th

20

Nor can Plaintiff satisfy the governmental compulsion test. This test considers

21

whether the coercive influence or “significant encouragement” of the state effectively

22

converts a private action into a government actor. Id. at 1094. As a temporary guardian,

23

Vullo was not under such government compulsion that she was required to act on behalf

24

of the state; rather - as indicated by the interviews she gave to DCS, Tempe PD, and La

25

Frontera - her role was merely to ensure the safety of the children and to report facts to

26

juvenile court. See id.

27

Finally, the nexus test asks whether “there is a such a close nexus between the State

28

and the challenged action that the seemingly private behavior may be fairly treated as that

16a

-8-

Case 2:17-cv-01811-DGC Document 127 Filed 12/16/19 Page 9 of 9

1

of the State itself.” Id. at 1095 (citations omitted). Plaintiff argues that Vullo’s decision

2

to take custody of B.C. and P.C. created a “verbal contractual agreement” with the state

3

which made her its agent. But Plaintiff does not cite, and the Court has not found, any

4

authority for this argument. What is more, Vullo volunteered to care for B.C. and P.C.

5

after the decision to remove B.C. and P.C. had been made. Vullo could have refused to

6

take in Plaintiffs children, with no effect on the State’s decision to remove them from the

7

Chagolla home. Vullo’s behavior cannot “be fairly treated as that of the State itself.” Id.

8

Aside from claiming that Vullo is an agent of the state because she had a “verbal

9

contractual agreement” with DCS, Plaintiff provides no facts or legal authority indicating

10

that temporary guardians are state actors for purposes of constitutional claims.3 The law is

11

clearly to the contrary. See Kirtley, 326 F.3d at 1096. The Court will grant summary

12

judgment on Plaintiffs claims against Vullo.

13

IT IS ORDERED:

14

1.

Defendants’ motions for summary judgment (Docs. 104,111) are granted.

15

2.

The Clerk is directed to terminate this action and enter judgment.

16

Dated this 16th day of December, 2019.

17
18
19
20

David G. Campbell
Senior United States District Judge

21
22
23
24
25

26
27
28

3 Plaintiff also alleges a § 1983 violation for defamation based on her belief that
Vullo published information about Plaintiffs court dealings at Plaintiffs church, school,
and neighborhood. Doc. 71 7-8. Because Vullo is not a state actor, this claim also fails.
17a

-9-

Michael K. Jeanes, Clerk of Court
Electronically Filed ***
07/10/2017 8:00 AM

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
07/07/2017

CV 2017-001125

CLERK OF THE COURT
B. Randhawa
Deputy

HON. ROSA MROZ

JACKIE CHAGOLLA, et al.

JACKIE CHAGOLLA
408 E LOMA VISTA DR
TEMPEAZ 85282

v.
LIZ VULLO, et al.

KHANRAT PIENSOOK
JACKIE CHAGOLLA
408 E LOMA VISTA DR
TEMPEAZ 85282

RULING

The Court has received Plaintiffs “Request/Motion to Not Remove Case from Maricopa
County Superior Court filed on June 26, 2017, and Correction on Request filed on June 27,
2017. The Court notes that the Defendants in this case have filed a Notice of Removal from
State Court Under 28 U.S.C. § 1441(a) on June 14, 2017. Pursuant to 28 U.S.C. § 1446(d), once
the Notice has been filed, “the State court shall proceed no further unless and until the case is
remanded.” The proper court to challenge the removal of this case from the state court is with
the federal court. Accordingly,
IT IS ORDERED denying Plaintiffs “Request/Motion to Not Remove Case from
Maricopa-County Superior Court filed on June 26, 2017, and Correction on Request filed on
June 27, 2017.

Docket Code 019

Form V000A

18a

Page 1

